         Office of the Inspector General
     U.S. Government Accountability Office




 STRATEGIC PLAN
 Serving the Congress and the Nation

       2013-2017




August 2012										                        OIG-12-1SP
Abbreviations

CCR	          U.S. Commission on Civil   IG 	   GAO Inspector General
              Rights
                                         OIG	   Office of the Inspector
CG 	          Comptroller General               General
GAO	          U.S. Government
              Accountability Office




OIG-12-1SP                                        OIG Strategic Plan 2013-2017   i
Message from the Inspector General
August 2012



I           am pleased to present the Office of Inspector General’s (OIG) Strategic Plan covering
            fiscal years 2013-2017. This strategic plan has been updated to reflect the statutory
            authorities created in the Government Accountability Office (GAO) Act of 20081 and
the Consolidated and Further Continuing Appropriations Act, 2012.2 In November 2011, Congress
designated the GAO Inspector General (IG) to also serve as the IG for the Commission on Civil
Rights (CCR) and directed that personnel of GAO’s OIG be utilized to perform the duties of
the IG for the CCR.3 The strategic plan discusses the vision, mission, goals, and performance
measures that will guide our work for the next 5 years.

Strategic planning is the starting point and foundation for defining what an office seeks to
accomplish, identifying the strategies it will use to achieve desired results and then determining
how well it succeeds in reaching results-oriented goals and achieving objectives. Developing a
strategic plan can help clarify organizational priorities and unify the agency’s staff in the pursuit
of shared goals.

As we implement this Strategic Plan, our objective is to continue to play a critical role in
protecting and preserving agency assets and resources. We will focus on mitigating those
management challenges facing GAO and CCR through continued collaboration and cooperation
with the Comptroller General (CG), the CCR Commissioners, and their senior management.
Performance measures outlined in this Strategic Plan will enable us to measure our success
both in assisting GAO and CCR to achieve their goals and in measuring our internal improvement
efforts.

Finally, execution of this plan is not possible without the efforts of each member of my staff.
They consistently demonstrate a commitment to public service and, specifically, to protecting
taxpayer interests. Together with our stakeholders, we will continue our efforts to facilitate
positive change within GAO and CCR.




Frances Garcia
Inspector General




1
  Pub. L. No. 110-323, 122 Stat.3539 (Sept. 22, 2008).
2
   P ub. L. No. 112-55, 125 Stat. 552, 628 (Nov. 18, 2011).
3
   T his designation is subject to reauthorization by Congress each fiscal year.


OIG-12-1SP                                                                         OIG Strategic Plan 2013-2017   ii
                            Serving the
                          Congress and the
                              Nation
                           OIG’s Strategic
                          Plan Framework
                                     Mission
 OIG’s mission is to promote economy, efficiency, and effectiveness within GAO
and CCR programs and operations, and to keep the agency heads and Congress fully
  informed concerning fraud and other serious problems, abuses, and deficiencies
      relating to the administration of GAO and CCR programs and operations.



                Goals                                   Objectives
 Maximize the Value of the OIG by          Quality products and services
 Providing Quality, Timely Service         Prevention and detection of fraud,
 through…                                    waste, or abuse

 Improve the Efficiency and                  Effective and efficient quality
 Effectiveness of OIG Operations               control framework
 through…


                                   Core Values
   Integrity      Teamwork            Confidentiality            Continuous
                                                                Improvement
Source: OIG.                                                        OIG Strategic Plan 2013-2017




                                                                                               iii
                   U.S. Government Accountability Office
                       U.S. Commission On Civil Rights
                      Office Of The Inspector General

                                             Strategic Plan
                                                    2013-2017
        Table of Contents
 Abbreviations.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
 Message from the Inspector General.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
 OIG’s Strategic Plan Framework.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
 OIG at a Glance.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
 Overview of GAO and CCR.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
 Strategic Goals, Objectives, Strategies, and Measures.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
 Goal 1: Maximize the Value of the OIG by Providing Quality, Timely Service.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                 Strategic Objective 1.1: Deliver Quality Products and Services That Identify 	
                    Ways to Improve GAO and CCR Programs and Operations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                 Strategic Objective 1.2: Prevent and Detect Fraud, Waste, or Abuse in GAO 	
                    and CCR Programs and Operations.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
 Goal 2: Improve the Efficiency and Effectiveness of OIG Operations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                 Strategic Objective 2.1: Maintain an Efficient and Effective Quality Control 	
                    Framework to Improve Internal Operations and Implementation of 	
                    Professional Standards.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8




OIG-12-1SP                                                                                                                                                                                                                       OIG Strategic Plan 2013-2017                                                    iv
OIG at a Glance
    Vision
To be a highly effective organization that promotes positive change by identifying opportunities
for improvements in the performance and efficiency of GAO’s and CCR’s programs and
operations.


    Mission
The mission of OIG is to
 conduct audits, investigations, and other reviews relating to GAO and CCR;
 promote economy, efficiency, and effectiveness in GAO and CCR; and
 keep the Comptroller General, the CCR Commissioners, and Congress informed concerning
   fraud and other serious problems relating to the administration of programs and operations
   of GAO and CCR.

In carrying out the OIG’s mission, the Inspector General (IG) may
 have access to all records, reports, audits, reviews, documents, papers, recommendations, or
   other material that relate to programs and operations of GAO and CCR;
 make such investigations and reports relating to the administration of the programs and
   operations of GAO and CCR as are, in the judgment of the Inspector General, necessary and
   desirable; and
 request from any federal agency such documents and information as may be necessary for
   carrying out the duties and responsibilities of the OIG.


    Core Values
Consistent with its mission and responsibilities, the OIG’s efforts are guided by four core values.
The OIG’s core values of integrity, teamwork, confidentiality, and continuous improvement
reflect what it believes to be the most important qualities needed for success and are reflected
in all of the work done by the OIG.

Integrity. The OIG sets high standards for the approach to its work, and ensures that the results
of its work are objective, fact-based, accurate, relevant, and are of the highest-quality.

Teamwork. The OIG highly values constructive working relationships with its agency
stakeholders and Congress to fulfill its roles and responsibilities. Internally, OIG promotes
consistent, fair, and effective communications and interactions at all levels to carry out its
work.




OIG-12-1SP                                                                 OIG Strategic Plan 2013-2017   1
Confidentiality. The OIG takes care to ensure that complaints and information can be reported
anonymously and without fear of retaliation. The OIG strives to ensure that the confidentiality
of individuals providing information is appropriately maintained in accordance with current laws
and guidelines.

Continuous Improvement. The OIG strives to continually improve the quality and usefulness of
OIG processes and products.


    OIG’s Organization
The OIG is headed by an Inspector General, who is appointed by, reports to, and is under the
general supervision of the Comptroller General. GAO has had an IG since 1996, but the statutory
authority, duties, and responsibilities of the Inspector General and the OIG were established in
the Government Accountability Office Act of 2008.  

The OIG is located in Washington, D.C.  As of August 2012, the OIG comprises nine staff.
In addition to the IG, OIG consists of the Deputy Inspector General, Counsel to the IG, the
Assistant Inspector General for Investigations, four senior auditors, and an executive assistant.




OIG-12-1SP                                                               OIG Strategic Plan 2013-2017   2
Overview of GAO and CCR
        U.S. Government Accountability Office
The Budget and Accounting Act of 1921 required the President to issue an annual federal budget
and established GAO as an independent agency to investigate how federal dollars are spent. In
the early years, GAO mainly audited vouchers, but after World War II, GAO started to perform
more comprehensive financial audits that examined the economy and efficiency of government
operations. By the 1960s, GAO began to perform the type of work the agency is noted for
today—program evaluation—which examines whether government programs are meeting
their objectives.

GAO is an independent, nonpartisan professional services agency in the legislative branch of the
federal government. Commonly known as the audit and investigative arm of Congress or the
“congressional watchdog,” GAO examines how taxpayer dollars are spent and advise lawmakers
and agency heads on ways to make government work better. As a legislative branch agency, the
agency is exempt from many laws that apply to the executive branch agencies. However, the
agency generally holds itself to the spirit of many of the laws, including the Federal Managers
Financial Integrity Act of 1982, the Government Performance and Results Act of 1993, and the
Federal Financial Management Improvement Act of 1996.

GAO’s mission is to support the Congress in meeting its constitutional responsibilities and to
help improve the performance and ensure the accountability of the federal government for
the benefit of the American people. GAO accomplishes its mission by providing objective and
reliable information and informed analysis to the Congress, to federal agencies, and to the
public, and it recommends improvements, when appropriate, on a wide variety of issues. Three
core values—accountability, integrity, and reliability—form the basis for all of GAO’s work,
regardless of its origin.


        U.S. Commission on Civil Rights
The United States Commission on Civil Rights (Commission), created pursuant to the Civil
Rights Act of 1957, 4 is responsible for (1) investigating allegations of discrimination because
of color, race, religion, sex, age, disability, or national origin or deprivation of voting rights,
and (2) collecting and studying information; monitoring the enforcement of federal laws and
policies; serving as a national clearinghouse for information; and preparing public service
announcements and advertising campaigns on issues pertaining to discrimination, denials
of equal protection of the laws, or the administration of justice. The Commission may hold
hearings and, within specific guidelines, issue subpoenas to obtain certain records and have



4
     P ub. L. No. 85-315, § 101, 71 Stat. 634 (1957).




OIG-12-1SP                                                                   OIG Strategic Plan 2013-2017   3
witnesses appear at hearings. It also maintains state advisory committees and consults with
representatives of federal, state, and local governments and private organizations to advance
its fact-finding work.

The Commission is required to issue reports on the findings of its investigations to Congress
and the President and to recommend legislative remedies. The Commission also must submit
annually to Congress and the President at least one report that monitors federal civil rights
enforcement in the United States. In addition, because it lacks enforcement powers that would
enable it to apply remedies in individual cases, the Commission refers specific complaints it
receives to the appropriate federal, state, or local government agency for action.




OIG-12-1SP                                                             OIG Strategic Plan 2013-2017   4
Strategic Goals, Objectives,  
Strategies, and Measures
The OIG has established two fundamental goals that are aligned with GAO’s strategic goal 4,
Maximize the Value of GAO by Enabling Quality, Timely Service to the Congress, and Being a Leading
Practices Federal Agency.5 The OIG’s goals define its strategic direction and each is further
defined by strategic objectives the OIG plans to accomplish and strategies to be used to achieve
them. To help the OIG determine how well it is meeting the needs of GAO, CCR, and Congress,
the OIG will assess its performance based on the outcomes or results achieved from its work.




 GAO, GAO Strategic Plan 2010-2015, GAO-10-559SP (Washington, D.C.: July 2010).
5 




OIG-12-1SP                                                                        OIG Strategic Plan 2013-2017   5
Goal 1
    Maximize the Value of the OIG by Providing Quality, Timely
    Service

    Strategic Objective 1.1
        Deliver Quality Products and Services That Identify Ways to Improve GAO
        and CCR Programs and Operations
    Strategies
    Monitor current and emerging agency programs, operations, risks, and management
      challenges that pose the most significant threats to GAO and CCR programs and
      operations to inform updates to strategic, workforce, and budgeting plans.
    Re-evaluate   and, if necessary, update the OIG’s audit risk assessment of GAO and CCR
      programs and operations, and annual work plan to focus on GAO’s and CCR’s most
      significant risk and challenges.
    Produce  useful and timely audit, evaluation, inspection, and investigative products that
      identify ways to improve agency programs and operations.
    Followup on all recommendations and administrative investigation referrals made to GAO
      and CCR to help ensure the agencies have taken appropriate corrective actions.

    Outcomes and Performance Measures
    The extent to which OIG work enhances accountability through better internal controls,
      increased efficiency and effectiveness of agency operations, and strengthens program
      integrity and use of funds more effectively and efficiently.
    Number   of new products containing recommendations that, when implemented, produce
      financial and nonfinancial benefits.
    Number    of corrective actions implemented to address OIG findings and recommendations.
    Customer   satisfaction with OIG work as evidenced by feedback on credibility of findings,
      practicality of recommendations, treatment of agency comments, and overall perceived
      usefulness and timeliness of products.




OIG-12-1SP                                                               OIG Strategic Plan 2013-2017   6
    Strategic Objective 1.2
        Prevent and Detect Fraud, Waste, or Abuse in GAO and CCR Programs and
        Operations
    Strategies
    Conduct  integrity awareness briefings to raise the awareness of the OIG Hotline and its
      purpose to GAO’s and CCR’s employees and contractors, thereby increasing the number of
      relevant and actionable complaints the Hotline receives.
    Continueto foster effective and efficient communications channels to receive and discuss
      complaints and allegations of fraud, waste, or abuse.
    Investigate complaints or information concerning the possible existence of activities
      constituting a violation of any law, rule, regulation, or mismanagement or gross waste of
      funds to protect the integrity of GAO and CCR programs and operations.
    Establish   the staffing infrastructure needed to facilitate investigative work.

    Outcomes and Performance Measures
    Continue to operate the OIG Hotline program, including the related websites in a manner
      that ensures credible allegations warranting further action are processed in a timely
      manner.
    Forward  complaints identified for referral to other units within GAO, CCR, and others,
      including federal OIG and law enforcement offices, in a timely manner.
    Recovery    of GAO and CCR resources through criminal, civil, or administrative actions.




OIG-12-1SP                                                                  OIG Strategic Plan 2013-2017   7
Goal 2
    Improve the Efficiency and Effectiveness of OIG Operations

    Strategic Objective 2.1
         Maintain an Efficient and Effective Quality Control Framework to Improve
         Internal Operations and Implementation of Professional Standards
    Implementation Strategies
    Periodically  review and update OIG policies and procedures for audits and investigations
        to ensure the OIG maintains a robust quality control framework that aligns with
        professional standards.
    Conduct   annual inspections to identify areas within the OIG’s quality control framework
        that need to be strengthened, and implement internal inspection and review suggestions
        to improve the OIG’s efficiency and effectiveness.
    Enhance     the OIG’s engagement-management process and operations through continuous
        improvement and innovation in products and services to achieve the most effective and
        efficient use of resources.

    Outcomes and Performance Measures
    Results   of annual inspections and reviews that show that the OIG’s system of quality
        control for audit, inspection, and investigations is suitably designed and complied with
        to provide the OIG with reasonable assurance of performing and reporting in conformity
        with applicable professional standards in all material respects.
    Increases in operational efficiency and effectiveness as a result of enhancements to
        engagement-management process and operations, and technology.
      Implementation of action plans that address results of annual inspections.




OIG-12-1SP                                                               OIG Strategic Plan 2013-2017   8
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                      •   Online at https://oig.alertline.com.

                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548

                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.
